No.

3fo tl)z Supreme Court of tfje {Hntteb States;
ALIREZA VAZIRABADI,
PETITIONER

v.
DENVER PUBLIC SCHOOLS
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Tenth Circuit
Words Count Declaration—Certification of Compliance
Under 28 U.S;C. § 1746

As required by U.S. Supreme Court Rule 33.1(h), I, Alireza Vazirabadi, certify
that my enclosed petition for writ of certiorari contains 6,982 words that
includes the footnotes, based on Microsoft Word word-counting tool. The words
counted exclude the exempted parts under Rule 33.1(d).
I, Alireza Vazirabadi, pursuant to 28 U.S.C. § 1746, declare under penalty of
perjury that the foregoing is true and correct.
Executed on January 4, 2021

Alireza Vazirabadi
843 Vaughn St.
Aurora, CO 80011
avazirabadi@yahoo.com
720-218-4769

